                                   NATIONAL SCIENCE FOUNDATION                          Page 1 of 2
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230




           OFFICE OF
      INSPECTOR GENERAL
               1




fl

     MEMORANDUM
               I

     To:     File I98120036

             m:9
     Background


     verification of a NSF Phase I grant for $500,000 that was awarded t  g
     On December 7, 1998, NSF-BFAIDGA met with a FBI Special Agent re arding the

     actual amount of the award was $50,000. I contacted the FBI to obtain additions
                                                                                      The

     information. A Special Agent with the FBI informed me that the FBI had received a
     request for assistance in verifying documents from
     of China in Hong Kong. The FBI Agent related that
     embezzling approximately $1.25 million dollars
     ~ o n ~ . s a eforged  d grant letter from NSF showing an award of $500,000 in order
     to show evidence of his financial status when starting up the new company.

     As a result of the evidence that      ad falsified a NFS grant letter, I conducted an
     investigation to determine i          misused NSE finds andlor provided false
     information to NSF to



     During the investigation I discovered information showing that           his company,
     had poss!ibly obtained duplicate funding from  NSF  and  NASA    r is research project. I
     contact;! NASA-OIG to"assist in the investigation. The investigation revealed that
     had pro;ided falsified proposals to both NSF and NASA by submitting documents
     forged signatures for the Chief Financial Officer for his company, and certifying that his
     company had not submitted similar proposals to other federal agencies.
                                                                              nd
     companies, received funding from both NSF and NASA for the same researc project
     during the same time period (1 993).
                                                                                        his
                rl

       After being unable to locate assets f o m m p a n i e s , and verifying with the FBI that
              currently being held by the Chinese government, 1 contacted the U.S. Attorney's
           Ice f6r the Southern District of Iowa to have the case assigned to an AUSA, or to have
       the case declined for prosecution. The U.S. Attorney's Office declined to prosecute the
       case on the grounds that F s currently in custody in China and is unlikely to return to
       the United States.

       NASA-OIG plans to initiate debarment proceedings against                                    the event that he does
       return torthe U.S. and attempts to obtain federal funding.

       Conclusions
,, .    .   -    "1.-   ......        ....c. .-
                                 ...... ,             ..........           . . . . . . . . . .   . . . . . . .   .   --   . . . .   ....................
       ~ a s e on                    ._ .
               d thd AUSA's determination not to prosecute, the case is closed with no further
                                                  .
                                   . .               ..            I....

       action.                  ,.         z                       .$
                                          .**
